U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

April 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Retail Ready Career Center, Inc. v. United States,
No. 19-970
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 30,
2020, and placed on the Court’s docket on February 3, 2020. The government’s response is
currently due, as extended, on May 4, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including May 8, 2020, within which to file the government’s response. This short extension
is necessary because, in light of COVID-19, this Office is endeavoring to minimize risks to the
health and safety of our personnel responsible for the filing and service of paper copies of Court
documents by reducing the number of days each week on which the filing and service of such
documents are necessary and on which those personnel must report to work in person.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0970
RETAIL READY CAREER CENTER, INC.
USA

CALEB A. DAVIS
KANE RUSSELL COLEMAN LOGAN PC
901 MAIN STREET
SUITE 5200
DALLAS, TX 75202
214-777-4267
CADAVIS@KRCL.COM
JACK G.B. TERNAN
TERNAN LAW FIRM, PLLC
1400 PRESTON ROAD
SUITE 400
PLANO, TX 75093
972-665-9939
JT@TERNANLAWFIRM.COM

